App. 1
APPENDIX A
FILED: January 22, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2062
(2:18-cv-00004-JPB-MJA)
TOM DOMINGO, SR.
Plaintiff - Appellant
v.
DEPARTMENT OF THE ARMY,
SAMR-EO-CCR Spurgeon A. Moore;
US EEOC, Office of Federal Operations
Defendants - Appellees
JUDGMENT
In accordance with the decision of this court, the
judgment of the district court is affirmed.
This judgment shall take effect upon issuance of
this court’s mandate in accordance with Fed. R. App. P.
41.
/s/ PATRICIA S. CONNOR, CLERK

App. 2
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2062
TOM DOMINGO, SR.,
Plaintiff - Appellant,
v.
DEPARTMENT OF THE ARMY,
SAMR-EO-CCR Spurgeon A. Moore;
US EEOC, Office of Federal Operations,
Defendant - Appellees.
Appeal from the United States District Court for the
Northern District of West Virginia, at Elkins. John
Preston Bailey, District Judge. (2:18-cv-00004-JPBMJA)
Submitted: January 17,2019

Decided: Januaty 22,2019

Before WILKINSON and DUNCAN, Circuit Judges,
and HAMILTON, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.

App. 3

Tom Domingo, Sr., Appellant Pro Se.

Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Tom Domingo, Sr., appeals from the district court’s
order dismissing for lack of jurisdiction his civil ac­
tion challenging an employment decision under the
Veterans’ Preference Act and Veterans Employment
Opportunity Act and referencing an employment dis­
crimination claim filed with the Equal Employment
Opportunity Commission. We have reviewed the rec­
ord and find no reversible error. Accordingly, we affirm
for the reasons stated by the district court. Domingo v.
Dep’t of the Army, No. 2:18-cv-00004-JPB-MJA (N.D.W.
Va. Aug. 28,2018). We dispense with oral argument be­
cause the facts and legal contentions are adequately
presented in the materials before this court and argu­
ment would not aid the decisional process.
AFFIRMED

App. 4
APPENDIX B
FILED: March 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-2062
(2:18-cv-00004-JPB-MJA)
TOM DOMINGO, SR.
Plaintiff - Appellant
v.
DEPARTMENT OF THE ARMY,
SAMR-EO-CCR Spurgeon A. Moore;
US EEOC, Office of Federal Operations
Defendants - Appellees
ORDER
The court denies the petition for rehearing and re­
hearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wil­
kinson, Judge Duncan, and Senior Judge Hamilton.
For the Court
/s/ Patricia S. Connor, Clerk

App. 5
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF WEST VIRGINIA
Elkins
TOM DOMINGO, SR.,
Plaintiff,
v.
DEPARTMENT OF
THE ARMY and
US EEOC,

Civil Action No. 2:18-CV-4
Judge Bailey

Defendants.
ORDER DISMISSING CASE
(Filed Aug. 28,2018)
Pending before this Court is defendants’ Motion to
Dismiss for Lack of Proper Service and Lack of Subject
Matter Jurisdiction, filed August 14, 2018 [Doc. 32]. A
Roseboro notice was issued on August 16, 2018. The
plaintiff filed his response on August 21, 2018, and the
defendants filed their reply on August 23, 2018.
On January 16, 2018, the plaintiff filed a pro se
complaint against the Department of the Army and the
EEOC, alleging that he had “applied for a federal job
at Fort Belvoir, Virginia, under veteran’s preference
and a[n] Iraq veteran was selected.” The plaintiff al­
leges that the person hired was not eligible for a vet­
eran’s preference, but that he was entitled to the
preference.

App. 6
The defendants have moved to dismiss on two
bases. First, that the plaintiff has not properly served
either defendant. Second, that this Court lacks subject
matter jurisdiction over this claim. This Court will ad­
dress the second argument first.
The Department of the Army contends that the
plaintiff made the same arguments as are embodied in
his complaint to the Merit Systems Protection Board,
which denied his claim on February 10, 2014, and in­
formed him that he could seek review of the decision
by filing a request with the United States Court of Ap­
peals for the Federal Circuit no later than sixty calen­
dar days after the date of the decision [Doc. 37-1].
In his response, the plaintiff indicates that he also
filed a claim with the EEOC and received a right to sue
letter on October 27, 2017. The plaintiff has not filed
any supporting documentation with the Court.
Subject matter jurisdiction is a threshold inquiry
to determine whether a court can hear a case. Fed. R.
Civ. P. 12(b)(1); Morrison v. Nat’l Austl. Bank Ltd.,
561 US. 247, 254 (2010) (citations omitted). A court
must determine whether it has subject matter jurisdic­
tion before addressing the substance of a lawsuit.
Flue-Cured Tobacco Coop. Stabilization Corp. v.
U.S.E.P.A., 313 F.3d 852, 857 (4th Cir. 2002) (citing
Owens-Illinois, Inc. v. Meade, 186 F.3d 435, 442 n. 4
(4th Cir. 1999)). Without jurisdiction, “the court cannot
proceed.” Steel Co. v. Citizens for a Better Env’t, 523
U.S. 83, 94 (1998) (citations omitted).

App. 7
A prospective plaintiff must demonstrate that a
court has subject matter jurisdiction to address his
claims. Richmond, Fredericksburg & Potomac R.
Co. v. United States, 945 F.2d 765, 768 (4th Cir. 1991)
(citing Adams v. Bain, 697 F.2d 1213, 1219 (4th Cir.
1982)).
The Veterans’ Preference Act established the con­
cept of veterans’ preference, which gives eligible veterans
certain advantages when seeking federal employment.
Miller v. FDIC, 818 F.3d 1357,1359 (Fed. Cir. 2016).
The Veterans Employment Opportunity Act allows
eligible veterans to administratively challenge a federal
agency hiring decision that allegedly misapplied veter­
ans’ preferences. See 5 U.S.C. § 3330a. A purportedly
aggrieved individual must first file a complaint to the
United States Department of Labor. Id. The individual
can then appeal to the MSPB. Id. The individual can
appeal a final MSPB order to the United States Court
of Appeals for the Federal Circuit. See 5 U.S.C. § 7703.
Alternatively, the individual can seek redress in the
applicable United States district court only if he files
a timely notice of election to the MSPB before the
MSPB issues a judicially reviewable decision. See 5
U.S.C. § 3330b.
The MSPB already issued a final order regarding
the exact same allegations that Domingo presents in
this lawsuit. [Doc. 37-1]. The United States Court of
Appeals for the Federal Circuit has exclusive jurisdic­
tion to review appeals from a final order of the MSPB.
Elgin v. Dep’t of Treasury, 567 U.S. 1, 6 (2012); 28

App. 8
U.S.C. § 1295(a)(9); 5 U.S.C. § 7703(b)(1) (with limited
exceptions, judicial review of a final MSPB order shall
be in the Federal Circuit).
Accordingly, this Court lacks subject matter juris­
diction to address Domingo’s allegations in this law­
suit, requiring that this action be dismissed. Defendants’
Motion to Dismiss for Lack of Proper Service and Lack
of Subject Matter jurisdiction, filed August 14, 2018
[Doc. 32] is GRANTED and this action is hereby DIS­
MISSED WITH PREJUDICE.
It is so ORDERED.
The Clerk is directed to transmit copies of this Or­
der to all counsel of record and to mail a copy to the pro
se plaintiff.
DATED: August 28, 2018.
/s/ John Preston Bailey
JOHN PRESTON BAILEY
UNITED STATES
DISTRICT JUDGE

App. 9
APPENDIX D
Tom Domingo <domingotom@gmail.com>
to OFOEEOC
Jan 16, 2018,11:39 AM
Officer of the day
I filed my complaint in US District Court and I need
your fax number to send you a copy of the complaint to
show you have been served also could you send me the
fax number for the department of the army or do you
send it to them when I serve you? Thank you Tom Do­
mingo
OFOEEOC <OFO.EEOC@eeoc.gov>
Jan 16, 2018,11:58 AM
to me
Mr. Domingo,
You do not need to serve the Commission with
your civil action against the Army. For the Army,
you could contact the EEO Director at (703)5455762 to obtain the correct information for provid­
ing service.
Attorney of the Day
Office of Federal Operations

App. 10
APPENDIX E
[SEAL]

U.S. EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION
Office of Federal Operations
P.O. Box 77960
Washington, DC 20013
[FAX# 202-663-7022]
Thomas Domingo, a/k/a
Tyrone D.,1
Complainant, ,
v.
Ryan D. McCarthy,
Acting Secretary,
Department of the Army,
Agency.
Request No. 0520170515
Appeal No. 0120160198
Hearing No. 570-2014-00585X
Agency No. ARMYER12SEP04017

DECISION ON REQUEST FOR RECONSIDERATION
Complainant timely requested that the Equal Em­
ployment Opportunity Commission (EEOC or Com­
mission) reconsider its decision in EEOC Appeal No.
CP 20160198 (July 20, 2017). EEOC Regulations
1 This case has been randomly assigned a pseudonym which
will replace Complainant’s name when the decision is published
to non-parties and the Commission’s website.

App. 11
provide that the Commission may, in its discretion,
grant a request to reconsider any previous Commission
decision issued pursuant to 29 C.F.R. § 1614.405(a),
where the requesting party demonstrates that: (1) the
appellate decision involved a clearly erroneous inter­
pretation of material fact or law; or (2) the appellate
decision will have a substantial impact on the policies,
practices, or operations of the agency. See 29 C.F.R.
§ 1614.405(c).
The record indicates that Complainant filed his com­
plaint on January 14, 2013, alleging discrimination
based on national origin, disability, and age when he
was not hired for the position of Airfield Management
Specialist under two vacancy announcement numbers.
An Equal Employment Opportunity Commission Ad­
ministrative Judge issued a decision without a hearing
finding no discrimination. On October 13, 2015, the
Agency issued its final order’finding no discrimination
regarding the complaint. Complainant appealed and
the Commission affirmed the Agency’s final order.
In his request, Complainant reiterates arguments he
previously made. The Commission emphasizes that a
request for reconsideration is not a second appeal
to the Commission. Equal Employment Opportunity
Management Directive for 29 C.F.R. Part 1614 (EEO
MD-110), at 9-18 (Aug. 5,2015); see, e.g.. Lopez v. Dep’t
of Agric.. EEOC Request No. 0520070736 (Aug. 20,
2007). Rather, a reconsideration request is an oppor­
tunity to demonstrate that the appellate decision in­
volved a clearly erroneous interpretation of material
fact or law, or will have a substantial impact on the

App. 12
policies, practices, or operations of the Agency. Com­
plainant has not done so here.
After reviewing the previous decision and the en­
tire record, the Commission finds that the request fails
to meet the criteria of 29 C.F.R. § 1614.405(c), and it is
the decision of the Commission to deny the request.
The decision in EEOC Appeal No. 0120160198 remains
the Commission’s decision. There is no further right of
administrative appeal on the decision of the Commis­
sion on this request.
COMPLAINANT’S RIGHT TO FILE A CIVIL ACTION
(P0610)
This decision of the Commission is final, and there
is no further right of administrative appeal from the
Commission’s decision. You have the right to file a civil
action in an appropriate United States District Court
within ninety (90) calendar days from the date that
you receive this decision. If you file a civil action, you
must name as the defendant in the complaint the per­
son who is the official Agency head or department
head, identifying that person by his or her full name
and official title. Failure to do so may result in the dis­
missal of your case in court. “Agency” or “department”
means the national organization, and not the local of­
fice, facility or department in which you work.

App. 13
RIGHT TO REQUEST COUNSEL (20815)
If you want to file a civil action but cannot pay the fees,
costs, or security to do so, you may request permission
from the court to proceed with the civil action without
paying these fees or costs. Similarly, if you cannot af­
ford an attorney to represent you in the civil action,
you may request the court to appoint an attorney for
you. You must submit the requests for waiver of
court costs or appointment of an attorney di­
rectly to the court, not the Commission. The court
has the sole discretion to grant or deny these types of
requests. Such requests do not alter the time limits for
filing a civil action (please read the paragraph titled
Complainant’s Right to File a Civil Action for the spe­
cific time limits).
FOR THE COMMISSION:
/s/ Carlton M. Hadden
Carlton M. Hadden, Director
Office of Federal Operations
October 27. 2017
Date

[Jan. 17, 2018 90 days.]

App. 14
APPENDIX F
8/27/2018 Vet Guide for HR Professionals
The Vietnam conflict in the 1960s resulted in several
modifications of the VP law of 1944. In 1966, legislation
was passed which granted peace-time preference for
Vietnam-era vets who served on active duty for more
than 180 consecutive days between January 31 1955
and Oct 10, 1976; National guard and reserve service
was excluded from this legislation.
In 1967 legislation was passed which expanded prefer­
ence to all veterans who served on active duty for more
than 180 days (no requirement to serve during war,
campaign, or conflict) between January 31, 1955 and
October 10, 1976. As with the previous year’s law, Na­
tional guard and reserve service was not included in
this expansion.
The end of the Vietnam conflict brought with it yet an­
other law, passed in 1976. This law put added restrictions
on veterans whose service begins after October 14,
1976. For post-Vietnam era veterans, preference was
granted only if these veterans became disabled, or
served in a declared war, a campaign, or expedition.
This legislation was the result of the conclusion of the
Vietnam conflict and its draft, the Department of De­
fenses’ desire to build a career military service, and
veterans organizations’ concern that preference was
not appropriate for purely peacetime service.
The Civil Service reform act of 1978 created new ben­
efits for veterans with a 30 percent or more disability.

App. 15
It also gave veterans extra protection in hiring and re­
tention. Under this act, preference was no longer
granted to nondisabled veterans who retired at the
rank of major or above.
In 1988, a law was passed that required the Depart­
ment of Labor to report agencies’ violations of Veterans
preference and failure to list vacancies with State em­
ployment services to the Office of Personnel Manage­
ment for enforcement.
The last major legislation affecting Veterans prefer­
ence occurred in the form of the Defense Appropria­
tions act of 1997. Under this legislation, preference
was accorded to anyone who served on active duty
during the Gulf War period (August 2, 1990 through
January 2, 1992). This law also granted preference to
certain service members who earned campaign medals
for service in Bosnia and Herzegovina in support of Op­
eration Joint Endeavor (November 20,1995 through De­
cember 20,1996) or Operation Joint Guard (December
20,1996 through a date designated by the Secretary of
Defense).
Time line of Veterans Preference in the Federal
Civil Service
1865
First Veterans preference (VP) in appointment
law; for Union veterans separated for wounds or
illnesses. Vets must have been honorably dis­
charged and qualified for job.

App. 16
1876
First VP in reduction in force (RIF) law
1919
After World War I, law grants VP to all honorably
discharged veterans, their widows, and the spouses
of veterans too disabled to work
1923
To distinguish between the preference and granted
by the 1865 and 1919 laws, an Executive Order
grants disabled vets 10 points and other vets 5
points, to be added to their individual numerical
ratings in examinations (point system first intro­
duced)
1929
Executive Order places disabled vets at the top of
examination lists of eligibles and continues 10 ex­
tra points
1944
Veterans Preference Act incorporates 1865, 1876,
and 1919 laws, plus Executive Orders for extra
points, passover protection, and rule of three. Con­
tinues to be cornerstone of Veterans civil service
legislation today (applied preference to active duty
service during war, expedition, or campaign for
which badge was authorized, must be separated
under honorable conditions, rule of three)
1952
Amendment extended 1944 law to include active
duty service from 4/28/52 - 7/1/55 Korean War

App. 17
1966
Peacetime preference for Vietnam-era vets added
active duty for >180 consecutive days between Jan
31 1955 and Oct 10, 1976; guard and reserve ser­
vice not included
1967
Expanded 1967 act to all vets who served on active
duty for >180 days (no requirement to serve dur­
ing war, campaign, or conflict) between Jan 31,
1955 and Oct 10, 1976 (guard and reserve service
not included)
1968
Executive Order creates Veterans Transitional
Appointment, a new way for Vietnam-era veterans
to enter Federal service without public examina­
tion. Forerunner of Veterans Readjustment Ap­
pointment (VRA)
1974
VRA enacted into law
1976
By law, veterans whose service begins after Octo­
ber 14, 1976 are granted preference only if they
become disabled, or serve in a declared war, a cam­
paign, or expedition. (This resulted from the end
of the Vietnam conflict and draft, Department of
Defense’s desire to build a career military service,
and Veterans groups concern that preference was
not appropriate for purely peacetime service.)

App. 18
1978
Civil Service reform act creates new benefits for 30
percent or more disabled veterans; special ap­
pointing authority, and extra protection in hiring
and retention. Preference ends for nondisabled re­
tired majors and above. Efforts to broaden rule of
three and make exceptions to numerical ratings in
examinations defeated by Veterans groups
1988
Law requires Dept, of Labor to report agencies’ vi­
olations of Veterans preference and failure to list
vacancies with State employment services to OPM
for enforcement
1990
VRA law amended to include post-Vietnam-era
veterans, but end coverage of most Vietnam-era
veterans
1992
VRA law revised to restore eligibility to Vietnamera veterans
1997
Defense Appropriations Act grants preference to
gulf war veterans and certain campaign medal
holders in Bosnia (included guard or reserve ser­
vice if for other than training)
2006

National Defense Authorization Act, Public Law
109-163, granted preference to those serving on
active duty in the armed forces for a period of more

App. 19
than 180 consecutive days any part of which oc­
curred during the period beginning September 11,
2001 and ending on a date prescribed by Presiden­
tial proclamation or by law as the last day of
Operation Iraqi Freedom. The law also amended
5 U.S.C. 2108(1) clarifying that individuals dis­
charged or released from active duty in the armed
forces, as opposed to being separated, may receive
veterans’ preference provided they meet other ap­
plicable veterans’ preference eligibility require­
ments.

